WAIVER
Supreme Court of the United States
No. 20-906
Thomas Charles Horne, et al.,
(Petitioners)

v.

Sheila Sullivan Polk
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for writ of certiorari
unless one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please
enter my appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of this Court. Should a response be requested, the
response will be filed by a Bar member.
Signature /s/Daniel P. Schaack
Date: January 6, 2021
(Type or print) Name: Daniel P. Schaack
Mr.
Ms.
Firm
Address
City & State
Phone

Mrs.

Miss

Arizona Attorney General's Office
2005 North Central Avenue
Phoenix AZ
Zip 85004
(602) 542-7659
Email daniel.schaack@azag.gov

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A
COPY OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

John Douglas Wilenchik, Esq.
Dennis I. Wilenchik, Esq.
Wilenchik & Barntess, P.C.
2810 N. Third St.
Phoenix AZ 85004

9198768

